Audit Report



Return
    to the USDOJ/OIG Home Page




Use of Equitable Sharing Revenues by the 
Memphis, Tennessee, Police Department


GR-40-02-008
 
August 2002

Office of the Inspector General

EXECUTIVE SUMMARY

The United States Department of Justice (Department), Office of the Inspector General, Audit Division, has completed an audit of the use of equitable sharing revenues by the Memphis, Tennessee, Police Department (MPD).  Equitable sharing revenues represent a share of the proceeds from the forfeiture of assets seized in the course of certain criminal investigations.   During the period July 1, 1999, through June 30, 2001, the MPD was awarded equitable sharing revenues totaling $2,915,543 and property valued at $25,920 to support law enforcement operations.
In brief, we found that the MPD did not comply fully with Department guidelines governing the accountability and use of equitably shared assets.  As a result, we identified $85,945 in dollar-related findings concerning equitable sharing funds disbursed to the MPD.  Specifically, our audit found that the MPD:

Inappropriately charged $46,475 against its equitable sharing account.
Could not adequately support $38,985 in equitable sharing funds.
Did not add $485 of earned interest back to the equitable sharing account.

In addition, we found that the MPD submitted administrative reports past the required deadline, listed an employee on administrative reports who is no longer assigned to the division that participates in the equitable sharing program, and did not restrictively endorse incoming checks.
The results of our work are discussed in greater detail in the Findings and Recommendations section of the report.  The audit objectives, scope and methodology appear in Appendix I.